                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF USDA FOREST
                                              SERVICE JOB CORPS CENTERS




                                                                    Date Issued: September 30, 2008
                                                                    Report Number: 26-08-004-01-370
U.S. Department of Labor                              September 2008
Office of Inspector General
Office of Audit                                       PERFORMANCE AUDIT OF USDA FOREST
                                                      SERVICE JOB CORPS CENTERS

BRIEFLY…                                              completed; and a former center manager also
                                                      overstated 14 of the 18 high school diploma
Highlights of Report Number 26-08-004-01-370,         completions reported for Flatwoods. All three
Performance Audit of USDA Forest Service Job          centers overstated Student On-Board Strength
Corps Centers to the National Director, Office of     (OBS), a measure of a center’s ability to operate at
Job Corps                                             full capacity. We determined 177 of the 716
                                                      students served by the three centers should have
WHY READ THE REPORT                                   been separated at an earlier date and should not
This report discusses weaknesses in controls over     have been included in the centers’ OBS
performance reporting and financial management        calculations after that date. Additionally, all three
at three Job Corps centers operated by the United     centers could not demonstrate that reported
States Department of Agriculture’s Forest Service.    student attendance was accurate.

WHY OIG CONDUCTED THE AUDIT                           General and Administrative expense reported to
Our audit objectives were to answer the following     Job Corps was understated by $859,000 for the
three questions:                                      three centers. Operating expense totaling
                                                      $671,000 was reported inaccurately for the three
   1. Did Forest Service ensure compliance with       centers. Finally, Forest Service could not provide
      Job Corps requirements for reporting            adequate assurance best value was received for
      performance?                                    goods and services purchased and the amounts
                                                      paid to vendors were appropriate and accounted
   2. Did Forest Service ensure compliance with       for accurately for $711,796 of $1,061,064 vendor
      Job Corps requirements for managing and         payments we reviewed.
      reporting financial activity?
                                                      During the course of our audit, nothing came to our
   3. Did Forest Service ensure compliance with       attention that indicated that Forest Service did not
      Job Corps requirements for managing             ensure compliance with Job Corps requirements
      center safety programs?                         for managing center safety programs.

READ THE FULL REPORT                                  WHAT OIG RECOMMENDED
To view the report, including the scope,              We made ten recommendations to the National
methodology, and full agency response, go to:         Director, Office of Job Corps. In general, our
http://www.oig.dol.gov/public/reports/oa/2008/26-     recommendations were to require Forest Service
08-004-01-370.pdf                                     to establish standard operating and financial
                                                      reporting procedures, provide adequate training
WHAT OIG FOUND                                        and supervisory oversight to the staff responsible
Forest Service did not ensure compliance with Job     for following the procedures, conduct periodic
Corps requirements for reporting performance and      performance and financial data integrity audits to
financial activities for PY 2005 at three Job Corps   test compliance, and implement corrective action
centers: Schenck Civilian Conservation Job Corps      plans when non compliance is identified.
Center (Schenck) in Pisgah Forest, North Carolina;    Additionally, we recommended that the National
Flatwoods Civilian Conservation Job Corps Center      Director consider the non compliance noted in this
(Flatwoods) in Coeburn, Virginia; and Blackwell       report when making future Forest Service budget
Civilian Conservation Job Corps Center                decisions.
(Blackwell) in Laona, Wisconsin.
                                                      HOW AUDITEE RESPONDED
We estimated that 112 of the 562 vocational           The National Director, Office of Job Corps
completions reported for the three centers were       concurred with the report’s findings and
invalid because training tasks had not been           recommendations for improvement.
               U.S. Department of Labor – Office of Inspector General




Three Forest Service Job Corps Centers
             Were Audited




                                                         Flatwoods Job
                                                         Corps Civilian
                                                         Conservation
                                                         Center,
                                                         Coeburn, VA




                                                    Schenck Job
                                                    Corps Civilian
                                                    Conservation
                                                    Center, Pisgah
                                                    Forest, NC


                       Blackwell Job
                       Corps Civilian
                       Conservation
                       Center, Laona, WI




         Performance Audit of USDA Forest Service Job Corps Centers
                                       Report No. 26-08-004-01-370
                                                            U.S. Department of Labor – Office of Inspector General



Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5

         Finding 1 – Forest Service did not ensure compliance with Job
            Corps requirements for reporting performance. ........................................ 6

         Finding 2 – Forest Service did not ensure compliance with Job
            Corps’ requirements for managing and reporting financial activity....... 14

Appendices.................................................................................................................. 21

         A. Background .................................................................................................. 23

         B. Objectives, Scope, Methodology, and Criteria .......................................... 25

         C. Acronyms and Abbreviations ..................................................................... 29

         D. Job Corps’ Response .................................................................................. 31




                                                   Performance Audit of USDA Forest Service Job Corps Centers
                                                                                 Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the United
States Department of Agriculture’s Forest Service (Forest Service) Job Corps program.
The Job Corps program operates its 122 centers through service contracts with private
sector contractors and agreements with federal government entities. During our audit
period (July 1, 2005, to June 30, 2006), Forest Service operated 19 Job Corps centers.
Forest Service’s Job Corps program has grown to 22 centers in 2008.

The audit objectives were to answer the following questions:

   1. Did Forest Service ensure compliance with Job Corps requirements for reporting
      performance?

   2. Did Forest Service ensure compliance with Job Corps requirements for
      managing and reporting financial activity?

   3. Did Forest Service ensure compliance with Job Corps requirements for
      managing center safety programs?

This report includes the results of our audit of the Forest Service operation of the
following Job Corps Centers: Schenck Civilian Conservation Job Corps Center
(Schenck) in Pisgah Forest, North Carolina; Flatwoods Civilian Conservation Job Corps
Center (Flatwoods) in Coeburn, Virginia; and Blackwell Civilian Conservation Job Corps
Center (Blackwell) in Laona, Wisconsin for PY 2005 (July 1, 2005, to June 30, 2006).

Results

Forest Service did not ensure compliance with Job Corps requirements for reporting
performance. We estimated that 112 (20 percent) of the 562 vocational completions
reported for the three centers visited were invalid because training tasks had not been
completed. A former center manager also overstated 14 (78 percent) of the 18 high
school diploma completions reported for Flatwoods. All three centers overstated
Student On-Board Strength (OBS), a measure of a center’s ability to operate at full
capacity. We determined 177 (25 percent) of the 716 students served by the three
centers should have been separated at an earlier date and should not have been
included in the centers’ OBS calculations after that date. Additionally, all three centers
could not demonstrate that reported student attendance was accurate. Documentation
for class attendance, center and morning sign in, and bed checks was inconsistent, not
completed, or not always maintained by the three centers.

Also, Forest Service did not ensure compliance with Job Corps requirements for
managing and reporting financial activity:



                                     Performance Audit of USDA Forest Service Job Corps Centers
                                             1                     Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


•   General and Administrative expense reported to Job Corps was understated by
    $859,000 for the three centers; and by $4.7 million for the 16 additional centers
    operated by Forest Service in PY 2005.

•   Operating expense totaling $671,000 was reported inaccurately for the three centers
    because Forest Service’s cost accounting practices did not always accrue costs or
    post amounts to the correct cost category.

•   For $711,796 (67 percent) of $1,061,064 vendor payments we reviewed, Forest
    Service could not provide adequate assurance best value was received for goods
    and services purchased and the amounts paid to vendors were appropriate and
    accounted for accurately.

These conditions occurred because Forest Service controls over performance and
financial reporting were not effective. For example, operating procedures were not
established and periodic center audits were not conducted as required. Also, Forest
Service told us that they had not provided the necessary management oversight. This
lack of controls over performance reporting and financial management undermines the
program’s integrity and eliminates accountability for ensuring that the program meets
stated objectives. Additionally, inaccurate financial and performance data impact
operational and funding decisions made by Forest Service, Job Corps, and Congress.

During the course of our audit, nothing came to our attention that indicated that Forest
Service did not ensure compliance with Job Corps requirements for managing center
safety programs.

Recommendations

We made ten recommendations to the National Director, Office of Job Corps. Foremost
among our recommendations was to require Forest Service to:

•   establish standard operating and financial reporting procedures,

•   provide adequate training and supervisory oversight to the staff responsible for
    following the procedures,

•   conduct periodic performance and financial data integrity audits to test compliance;
    and

•   implement corrective action plans when non compliance is identified.

Additionally, we recommended that the National Director consider the non compliance
noted in this report when making future Forest Service budget decisions.




                                     Performance Audit of USDA Forest Service Job Corps Centers
                                             2                     Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


Job Corps Response

The National Office of Job Corps concurs with the reported findings and
recommendations. The Job Corps Regional Offices (Philadelphia, Region II; Atlanta,
Region III; and Chicago, Region V) will coordinate with the Forest Service to request
their written concurrence, non-concurrence, or concurrence in-part to the reported
findings and recommendations as related to Schenck, Flatwoods, and Blackwell.
Further, the Job Corps Regional Offices will provide a plan of action and milestones for
completing the planned Forest Service actions to the reported recommendations. In the
interim, Job Corps Regional Offices will stay in communication with the Forest Service
to coordinate a written response including a plan of action and milestone(s) which
should be forwarded to the OIG no later than October 17, 2008.

The Office of Job Corps will also consider the issues of wasteful spending and financial
noncompliance when making future budget decisions impacting the Forest Service’s
management of its Civilian Conservation Job Corps centers.


OIG Conclusion
The OIG agrees that National Office of Job Corps planned corrective actions were
appropriate to the recommendations made. Job Corps will coordinate with the Forest
Service to obtain a plan of action and milestones for recommendations 1 through 4 and
6 through 9. Those recommendations were directed at improving Forest Service’s
controls over performance and financial reporting. At this time, we consider those eight
recommendations as unresolved. We will resolve those eight recommendations after
the Office of Job Corps provides documentation showing the Forest Service has
developed a plan of corrective actions and milestones. Subsequently, we can close
those eight recommendations after Job Corps provides documentation showing the
planned Forest Service corrective actions have been completed.

In addition, we have resolved and closed recommendations 5 and 10 made to the
National Director, Office of Job Corps, based upon Job Corps plan to consider the
issues of financial noncompliance and wasteful spending when making future Forest
Service budget decisions.




                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            3                     Report No. 26-08-004-01-370
                U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




          Performance Audit of USDA Forest Service Job Corps Centers
                  4                     Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


September 30, 2008


                        Assistant Inspector General’s Report



Esther R. Johnson
National Director
Office of Job Corps
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210


The Office of Inspector General (OIG) conducted a performance audit of Job Corps
Civilian Conservation Centers (Centers) operated by the United States Department of
Agriculture’s Forest Service (Forest Service). During PY 2005, Forest Service received
over $100 million from the Department of Labor to operate 19 Centers. Job Corps
requires center operators to establish procedures and conduct periodic center audits to
ensure data integrity, accountability, and prevention of fraud and program abuse.

The audit objectives were to answer the following questions:

   1. Did Forest Service ensure compliance with Job Corps requirements for reporting
      performance?

   2. Did Forest Service ensure compliance with Job Corps requirements for
      managing and reporting financial activity?

   3. Did Forest Service ensure compliance with Job Corps requirements for
      managing center safety programs?

Results and Findings

Forest Service should take action to improve oversight of its Job Corps centers.
Centers did not comply with Job Corps requirements for reporting performance and
financial activities. Inaccurate performance and financial reporting impacts operational
and funding decisions made by Forest Service, Job Corps, and Congress. These
decisions, in turn, impact the quality of services provided to Job Corps students.
Nothing came to our attention during our testing to indicate that Forest Service did not
comply with Job Corps requirements to ensure center safety.



                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            5                     Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


This report is a summary of our audit work conducted at Forest Service’s headquarters
in Lakewood, Colorado; Albuquerque Service Center in Albuquerque, New Mexico;
Schenck Civilian Conservation Job Corps Center (Schenck) in Pisgah Forest, North
Carolina; Flatwoods Civilian Conservation Job Corps Center (Flatwoods) in Coeburn,
Virginia; and Blackwell Civilian Conservation Job Corps Center (Blackwell) in Laona,
Wisconsin. Except where noted, we reviewed performance, financial, and center safety
data for PY 2005.

We previously issued a report concerning our work at Schenck (Report No. 26-08-002-
03-390). That report discussed performance and financial issues and contained 14
audit recommendations to the National Director of Job Corps for corrective action. The
National Director concurred with our findings and recommendations.

Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

Objective 1 – Did USDA Forest Service ensure compliance with Job Corps
              requirements for reporting performance?

Finding 1 –    Forest Service did not ensure compliance with Job Corps
               requirements for reporting performance.

Reported performance for PY 2005 was not accurate at Schenck, Flatwoods, and
Blackwell in three areas. First, student achievement was overstated. Based on a
statistical sample, we estimate that 112 (20 percent) of the 562 vocational completions
reported for the three centers visited were invalid because training tasks had not been
completed as required by Job Corps; and a former center manager overstated 14 (78
percent) of the 18 high school diploma completions reported for Flatwoods. Second, all
three centers overstated Student On-Board Strength (OBS), a measure of a center’s
ability to operate at full capacity. We determined that twenty-five percent of the 716
students served by the three centers should have been separated at an earlier date and
should not have been included in the center’s OBS calculation after that date. And
third, the three centers could not provide adequate assurance that reported student
attendance was reliable. Documentation for class attendance, center and morning sign
in, and bed checks was inconsistent, not completed, or not always maintained by the
three centers.

These conditions occurred because Forest Service management did not emphasize
compliance with Job Corps requirements for reporting performance. Staff did not
receive adequate guidance and periodic center audits to identify and correct non


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            6                     Report No. 26-08-004-01-370
                                             U.S. Department of Labor – Office of Inspector General


 compliance were not conducted as required. Because these are systemic weaknesses
 in management oversight, it is likely that similar problems existed at other Forest
 Service centers.

 Student Achievement Was Overstated

 All three centers reported students with incomplete training as vocational completers;
 and a center manager at Flatwoods overstated High School Diploma attainments.

 Vocational Completions Were Invalid

 The three centers reported students with incomplete Training Achievement Records
 (TARs) as vocational completers in their reported performance for PY 2005. The Job
 Corps PRH requires centers to ensure student progress is documented on TARs as
 progress occurs. Instructors are required to document that students are proficient at all
 tasks listed on the TARs. Changes to the tasks listed on the TARs must be approved
 by Job Corps.

 We statistically sampled 90 of the 562 students reported by the three centers as
 vocational completers during PY 2005. We found that 18, or 20 percent of the 90 TARs
 tested were not consistent with PRH requirements because one or more tasks were not
 completed. Projecting our statistical sample results to the 562 vocational completions
 reported for PY 2005, we expect with a 95 percent confidence level (sampling error +/-
 3.89 percent) that 112 students, or 20 percent, did not complete the vocation as
 required. Table 1 shows the 18 invalid TARs we identified during testing, by center.


                                           Table 1

                                  18 TARs Were Invalid
                                          (PY 2005)


            Schenck              Flatwoods                 Blackwell                   Total
        Tested     Invalid    Tested       Invalid    Tested       Invalid     Tested       Invalid
TARs      30      5 (17%)       30        5 (17%)        30       8 (27%)         90       18 (20%)


 Instructors at the three centers state that they received neither formal training nor
 written guidance on how to complete TARs. We confirmed that standard operating
 procedures for completing TARs were not included in the Center Operating Procedures
 manuals provided to staff at Schenck, Flatwoods, and Blackwell.




                                       Performance Audit of USDA Forest Service Job Corps Centers
                                               7                     Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


High School Diploma Attainments Were Overstated

We statistically sampled 90 of the 292 students reported as attaining either a High
School Diploma or GED Certificate at the three centers during PY 2005. We found that
6, or 7 percent of the students tested did not have a High School Diploma or GED
Certificate in their files to support attainment. Moreover, we found that each of the 6
students without the required supporting documentation supposedly attained High
School Diplomas at Flatwoods. We concluded that the number of High School Diploma
and GED Certificate attainments reported for Schenck and Blackwell was reliable and
expanded our High School Diploma testing at Flatwoods. We reviewed all 18 students
reported as attaining High School Diplomas at Flatwoods and determined that 14, or 78
percent, had not graduated. Flatwoods student records showed that 11 of the 14
students had been enrolled in an online high school program at the center but did not
graduate and that the remaining three students were never enrolled.

Flatwoods’ Record Clerk was responsible for entering High School Diploma attainment
into the Job Corps Center Information System (CIS) based on verification of course
completion and receipt of the required High School Diploma. We determined that
Flatwoods’ former Principal Teacher, responsible for managing the center’s Education
Department, circumvented this control by improperly obtaining “Super User” access to
the CIS and entering High School Diploma attainments. The Principal Teacher had
obtained “Super User” access by convincing the former Center Director that he needed
to enter High School Diploma attainments into CIS because online high schools were
slow in sending the diplomas. He told the Center Director that Flatwoods had lost High
School Diploma attainment credit in the past because the CIS would not allow a diploma
attainment to be entered after a student had been separated from the center for 60 or
more days.

We believe the Principal Teacher overstated the High School Diploma attainments to
cover up an ineffective center high school program. Only 4 of the 15 students enrolled
in Flatwoods’ high school program during PY 2005 actually graduated. During the audit,
Forest Service management informed us that the Principal Teacher no longer worked
for the Federal government and the center’s online high school program was
discontinued.

OBS Overstated at All Three Centers

Schenck, Flatwoods, and Blackwell overstated student OBS because students were not
separated as required when they exceeded Absent Without Leave (AWOL) limits
specified in the Job Corps PRH. Job Corps defines OBS as “an efficiency measure that
depicts the extent to which centers operate at full capacity”. Center staff record student
attendance in the Job Corps CIS, which calculates center OBS. Additionally, the three
centers could not provide adequate assurance that staff attempted to minimize student
AWOL days and separations by contacting the AWOL students as required by Job
Corps.



                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            8                     Report No. 26-08-004-01-370
                                                  U.S. Department of Labor – Office of Inspector General


Centers Did Not Comply With Job Corps AWOL Limits

We reviewed the leave records from the 716 students served by the three centers
during PY 2005. We found that 177 students, or 25 percent should have been
separated at an earlier date and should not have been included in the centers’ OBS
calculations after that date. We determined that center management retained the 177
students 5,763 days in violation of the PRH, which overstated OBS. Table 2
summarizes the type of PRH violation and the number of students and days in violation.

                                                Table 2

                      177 Students Were Not Separated As Required
                                               (PY 2005)


                                              No. of Students and Days in Violation
PRH Violation                 Schenck             Flatwoods           Blackwell             Total
Not separated after
exceeding 6 consecutive
                            50 (2,410 days)       54 (770 days)      12 (705 days)     116 (3,885 days)
AWOL days or 12 days in
180-day period
Granted improper Leave
instead of separation due    24 (334 days)       21 (1,104 days)     16 (440 days)     61 (1,878 days)
to AWOL
         Totals             74 (2,744 days)      75 (1,874 days)    28 (1,145 days)   177 (5,763 days)



Based on the budgeted cost per student day at the centers, Forest Service expended
$550,000 ($95.44 x 5,763 days) in PY 2005 to house and train the 177 students after
they should have been separated from Job Corps. These funds could have been put to
better use by enrolling new students that would potentially comply with Job Corps
attendance requirements and take better advantage of the training provided.

We interviewed key center staff such as the Center Administrative Officers, Supervisors
of Counseling, and Records Clerks to determine why students were not separated as
required by the AWOL limits specified in the Job Corps PRH. The center staff stated
that they could not initiate student separations without approval by the Center Directors
and this approval was generally not given. As such, we concluded that center
management did not emphasize compliance with Job Corps AWOL requirements.

AWOL Students Were Not Contacted

Schenck, Flatwoods, and Blackwell could not provide adequate assurance that staff
attempted to minimize student AWOL days and separations by contacting AWOL
students as required by Job Corps. Our review of 314 judgmentally selected student
files at the three centers showed that the files for 244 students (78 percent) did not


                                         Performance Audit of USDA Forest Service Job Corps Centers
                                                 9                     Report No. 26-08-004-01-370
                                                       U.S. Department of Labor – Office of Inspector General


 contain the required AWOL contact documentation. Table 3 shows our test results, by
 center.

                                                     Table 3

                         Required Contact Documentation Was Missing
                               For 78 Percent of AWOL Students
                                                     (PY 2005)


                          Schenck                Flatwoods                Blackwell                  Total
                    Tested      Missing      Tested      Missing     Tested     Missing      Tested      Missing
AWOL Contact
                      133      117 (88%)        88       83(94%)        93      44 (47%)       314      244 (78%)
Documentation


 According to the Center Records Clerks at all three centers, center staff did try to
 contact AWOL students but did not always retain the required documentation in the
 student files. They said, however, that they were not informed that Job Corps required
 the attempted contacts to be documented. We confirmed that standard operating
 procedures for documenting the contact attempts were not included in the Center
 Operating Procedures manuals provided to staff at the three centers. As such, we
 again concluded that center management did not emphasize compliance with Job
 Corps AWOL requirements.

 Reported Student Attendance Was Not Reliable

 Schenck, Flatwoods, and Blackwell could not provide adequate assurance that reported
 student attendance was reliable. Documentation required by the Job Corps PRH for
 class attendance, center and morning sign in, bed checks, and Leave was inconsistent,
 not completed, or not maintained as required by Job Corps.

 Job Corps centers track daily student attendance on a Morning Report. Students are
 identified as present at the center or not present due to Leave, AWOL, or off-center
 assignments. The Job Corps PRH requires centers to establish a verification system to
 document each student’s presence at the center. Required components of this system
 include class attendance rosters; center sign-in logs for students returning to the center
 after a weekend, holiday break, or Leave; morning sign-in logs to document student
 presence in the morning; bed check logs to document student presence in the evening,
 and Leave forms to documents compliance with Job Corps requirements for granting
 Leave. 1 The PRH also requires centers to maintain this documentation for a minimum
 of 3 years.




 1
  Job Corps requirements for granting Leave (Emergency Leave, Administrative Leave With Pay, Administrative
 Leave Without Pay) are specified in the Job Corps PRH, Chapter 6, Exhibit 6-1.

                                              Performance Audit of USDA Forest Service Job Corps Centers
                                                      10                    Report No. 26-08-004-01-370
                                               U.S. Department of Labor – Office of Inspector General


  We judgmentally selected the period January 3, 2006, to January 9, 2006 to determine
  whether daily student attendance reported in the three centers’ Morning Reports was
  verifiable when compared to class attendance rosters; center and morning sign-in logs,
  and bed check logs. We also statistically sampled the 61 students from the three
  centers during PY 2005 to determine whether Leave was granted in compliance with
  Job Corps requirements. We found that between 47 and 100 percent of the required
  documents were not consistent with the Morning Report or were not completed or
  maintained as required by Job Corps. Table 4 summarizes are test results, by center.

                                             Table 4

               Between 47 and 100 Percent of the Required Documents
                             Were Not in Compliance

                    Schenck           Flatwoods                  Blackwell                 Totals
                          Not                   Not                     Not                     Not
             Tested     Verified   Tested     Verified    Tested      Verified    Tested      Verified
Class                                                                                          1,090
Attendance    984      142 (14%)    921      725 (79%)      778      223 (29%)    2,683        (41%)
Center
Sign-in       221     221 (100%)    172      172 (100%)     213      44 (21%)      606       437 (72%)
Morning
sign-in       221     221 (100%)    172      172 (100%)     213     213 (100%)     606       606 (100%)
                                                1,534                                          2,161
Bed Check    1,547     334 (22%)   1,534       (100%)      1,477     293 (20%)    4,558        (47%)

Leave         20        7 (35%)     20        17 (85%)      21       18 (86%)       61        42 (69%)

  Based on these test results, we concluded the three centers did not account for
  students as required by Job Corps; and student attendance reported in the Morning
  Reports was not reliable. This occurred because center management did not require
  staff to comply with the Job Corps student attendance requirements. Additionally, we
  found that standard operating procedures for completing the attendance documentation
  were not included in the Center Operating Procedures manuals provided to staff at the
  three centers.

  As noted in Table 4, 42 of the 61 students tested (69 percent) had leave granted that
  was not in compliance with Job Corps requirements. This resulted in 321 improper
  Leave days. We statistically projected the 321 improper days to the 9,770 total Leave
  days granted by the three centers during PY 2005. We estimate with a 95 percent
  confidence level (sampling error +/- 1.74 percent) that the three centers granted as
  many as 3,335 improper Leave days. Based on the budgeted cost per student day at
  the centers, Forest Service expended as much as $318,292 ($95.44 x 3,335 days) in
  PY 2005 to house and train the students when they were actually not at the centers.
  The funds would have been put to better use if the centers complied with Job Corps
  Leave requirements, thereby ensuring the students were present at the centers and
  receiving the benefits for which the funds were intended.


                                         Performance Audit of USDA Forest Service Job Corps Centers
                                                 11                    Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


Controls Over Performance Reporting Need Improvement

Inaccurate performance reporting impacts operational and funding decisions made by
Forest Service, Job Corps, and Congress. These decisions, in turn, impact the quality
of services provided to Job Corps students. The inaccurate performance reporting
noted in this report occurred because Forest Service controls over performance
reporting were not effective. Standard operating procedures were not established for
documenting training, contact attempts for AWOL students, and attendance. The Job
Corps PRH establishes program management responsibilities for each center operator.
These responsibilities include ensuring:

   •   Effective program organization and management,
   •   Program integrity and accountability,
   •   Staff professionalism and development, and
   •   Services are provided in a cost-effective and financially responsible manner.

Standard operating procedures are a critical management control because they provide
center staff specific guidance on responsibilities and procedures for ensuring
compliance with the PRH. Center management should also provide adequate training
and oversight to ensure the standard operating procedures are followed.

Furthermore, inadequate oversight of center compliance with Job Corps requirements
contributed to the inaccurate performance information reported by the three centers.
The PRH requires center operators to establish procedures and conduct periodic audits
to ensure integrity, accountability, and prevention of fraud and program abuse. Forest
Service neither established the procedures nor conducted the audits as required.
Forest Service did conduct on-site monitoring at its centers. However, the program
managers at the Forest Service stated that these center reviews were focused on
student development and career preparedness. Steps to ensure center compliance
with Job Corps requirements for reporting performance were not included in the center
reviews.

The management oversight weaknesses we identified were systemic. As such, it is
likely that similar problems existed at other Forest Service centers. Forest Service
management agreed with our conclusions and initiated some corrective actions. Forest
Service reorganized the headquarters management team responsible for center
operations to improve oversight. Additionally, Forest Service issued new policy
mandating compliance with Job Corps performance requirements and initiated a plan
for annual data integrity audits at all its centers.

Recommendations

We recommended that the National Director, Office of Job Corps, require Forest
Service to increase its emphasis on compliance with Job Corps requirements by
implementing the program management responsibilities specified in the Job Corps


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            12                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


PRH. Specifically, we recommend that the National Director require Forest Service to:

   1. Establish controls to require SOPs be developed for tracking and reporting
      performance.

   2. Provide adequate training and supervisor oversight to staff responsible for
      following the SOPs and complying with Job Corp performance reporting
      requirements.

   3. Conduct data integrity audits at each of its centers to effectively identify systemic
      non-compliance with Job Corps performance reporting requirements. These
      audits should assess PRH compliance with all elements of performance reporting
      including student achievement, OBS, and student attendance.

   4. Implement corrective actions plans when PRH non-compliance is identified
      during data integrity audits. The corrective action should include providing Job
      Corps with any adjustments to previously reported performance.

In addition, we recommend that the National Director:

   5. Consider the non-compliance and wasteful spending noted in this report when
      making future Forest Service budget decisions.

Job Corps Response

The National Office of Job Corps concurs with the reported findings and
recommendations. The Job Corps Regional Offices (Philadelphia, Region II; Atlanta,
Region III; and Chicago, Region V) will coordinate with the Forest Service to request
their written concurrence, non-concurrence, or concurrence in-part to the reported
findings and recommendations as related to Schenck, Flatwoods, and Blackwell.
Further, the Job Corps Regional Offices will provide a plan of action and milestones for
completing the planned Forest Service actions to the reported recommendations. In the
interim, Job Corps Regional Offices will stay in communication with the Forest Service
to coordinate a written response including a plan of action and milestone(s) which
should be forwarded to the OIG no later than October 17, 2008.

The Office of Job Corps will also consider the issues of wasteful spending and financial
noncompliance as recommended when making future budget decisions impacting the
Forest Service’s management of its Civilian Conservation Job Corps centers.

OIG Conclusion
The OIG agrees that the National Office of Job Corps’ planned corrective actions were
appropriate to recommendations 1, 2, 3, 4, and 5. Job Corps will coordinate with the
Forest Service to obtain a plan of action and milestones for recommendations 1, 2, 3,
and 4. Until Job Corps provides documentation showing the Forest Service has
developed a plan of corrective actions and milestones, we consider those four

                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            13                    Report No. 26-08-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


recommendations as unresolved. We will resolve those recommendations after the
Office of Job Corps provides documentation showing the Forest Service has developed
a plan of corrective actions and milestones. Subsequently, we will close the
recommendations after Job Corps provides documentation showing the planned Forest
Service corrective actions have been completed.

In addition, we have resolved and closed recommendation 5 made to the National
Director, Office of Job Corps, based upon Job Corps plan to consider the issues of
financial noncompliance and wasteful spending when making future Forest Service
budget decisions.

The Agency’s verbatim response to these audit recommendations can be found in
Appendix D.

Objective 2 – Did Forest Service ensure compliance with Job Corps
              requirements for managing and reporting financial activity?

Finding 2 –    Forest Service did not ensure compliance with Job Corps’
               requirements for managing and reporting financial activity.

Financial management and reporting for Schenck, Flatwoods, and Blackwell was
inadequate. First, General and Administrative expense was not allocated as required
by Job Corps. As a result, the General and Administrative expense reported to Job
Corps was understated by $859,000 for the three centers; and by $4.7 million for the 16
additional centers operated by Forest Service during PY 2005. Second, operating
expense totaling $671,000 was reported inaccurately for the three centers because
Forest Service’s cost accounting practices did not always accrue costs or post amounts
to the correct cost category. And third, Forest Service could not provide adequate
assurance best value was received for goods and services purchased for the three
centers and the amounts paid to vendors were appropriate and accounted for
accurately. For 54 (40 percent) of 134 vendor payments we reviewed, Forest Service
could not provide adequate assurance best value was received for goods and services
purchased and the amounts paid to vendors were appropriate and accounted for
accurately. Similar to our previous finding on inaccurate performance reporting,
inadequate financial management and inaccurate reporting impacts operational and
funding decisions made by Forest Service, Job Corps, and Congress. Ultimately, these
decisions impact the quality of services provided to Job Corps students. The financial
management and reporting weaknesses we identified also occurred because Forest
Service management did not emphasize compliance with Job Corps requirements.
Standard financial reporting procedures were not established and periodic financial
audits were not conducted.

General and Administrative Expense Was Understated

General and Administrative expense was not allocated as required by Job Corps. Job
Corps provided Forest Service $6.4 million in PY 2005 to fund Program Direction costs,


                                   Performance Audit of USDA Forest Service Job Corps Centers
                                           14                    Report No. 26-08-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


which when allocated to its centers is reported to Job Corps in expense reports as
General and Administrative expense. This funding covered Forest Service operations
at its Job Corps National Office Headquarters in Lakewood, Colorado and for senior-
level personnel in Washington DC working on Job Corps. The Job Corps PRH requires
Forest Service to allocate General and Administrative expense to its centers based on
each center’s student capacity.

We found that Forest Service had not established standard financial reporting
procedures to allocate the General and Administrative expense as required. Instead,
Forest Service management allocated arbitrary amounts to each of its centers.
Schenck, Flatwoods, and Blackwell were allocated $50,000 each. As a result, the
General and Administrative expense reported to Job Corps was understated by
$859,000 for the three centers; and by $4.7 million for the 16 additional centers
operated by Forest Service during PY 2005. Based on the allocation method specified
in the PRH, the three centers should have been allocated over $300,000 each. Table 5
shows the centers’ student capacity and our calculation for the understated amounts.

                                       Table 5

                        General and Administrative Expense
                          Was Understated by $5.5 Million
                                       (PY 2005)


                      Schenck    Flatwoods     Blackwell      16 Centers          Total
  Student Capacity         224          224           205             3,494           4,147
  Allocation based
  on Capacity         $346,234     $346,234      $316,866       $5,400,630      $6,409,964
  Amount
  Reported             $50,000      $50,000        $50,000        $713,284        $863,284
  Amount
  Understated         $296,234     $296,234      $266,866       $4,687,346      $5,546,680

The accounting staff responsible for the allocation told us they were not aware of the
Job Corps requirement to allocate based on center student capacity and the amounts
allocated were directed by management. Current Forest Service management could
not explain why the General and Administrative expense was not allocated as required
by Job Corps.

Reported Operating Expense was Not Accurate

Operating expense was reported inaccurately for the three centers because Forest
Service’s cost accounting practices did not comply with Job Corps requirements. The
Job Corps PRH requires Forest Service to account for operating expense on an accrual
basis and ensure the amounts reported are timely and accurate. Additionally, when
expenses are not available for inclusion in the year-end expense report (e.g., June


                                   Performance Audit of USDA Forest Service Job Corps Centers
                                           15                    Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


expenses billed in July), the year-end expense report should be restated when the
expenses are known and recorded in the Forest Service General Ledger.
We compared Schenck, Flatwoods, and Blackwell’s year-end expense reports to Forest
Service’s General Ledger to determine whether the amounts in the corresponding cost
categories were consistent. We found that operating expense totaling $671,000 was
reported inaccurately for the three centers because Forest Service’s cost accounting
practices did not always accrue costs or post amounts to the correct cost category.
Table 6 shows our calculation for the $671,000 of misstated expense, by center.

                                       Table 6

                        Operating Expenses Were Misstated
                                    (PY 2005)

                             Schenck        Flatwoods         Blackwell           Total

Amount Overstated              $188,163          $14,890         $46,926          $249,978

Amount Understated             $102,897        $236,819          $81,617          $421,333

Total Misstated                $376,326        $251,709         $128,543          $671,311

The accounting staff responsible for recording operating expense told us that standard
financial reporting procedures for operating expense were not provided and the
expense was sometimes recorded with insufficient information to determine the correct
cost category. Current Forest Service management could not explain why the operating
expense was not recorded and reported as required by Job Corps.

Vendor Management Needs Improvement

Forest Service could not provide adequate assurance best value was received for
goods and services purchased for the three centers and the amounts paid to vendors
were appropriate and accounted for accurately. Based on a judgmentally selected
sample, we found that $711,796 (67 percent) of $1,061,064 vendor payments reviewed
were not competed as required by Federal Acquisition Regulations ($426,710, or 12
payments), supported by invoices and other documentation required by Job Corps
($126,953, or 25 payments), or posted to the correct cost category ($158,133, or 17
payments).

Full and Open Competition Was Not Provided

Forest Service did not provide full and open competition when purchasing goods and
services for the three centers. Federal Acquisition Regulations (FAR) require all
government agencies to solicit bids for planned purchases over $2,500. The
government agencies are then required to select the lowest bid from a qualified vendor
or justify selecting a higher bid.

                                   Performance Audit of USDA Forest Service Job Corps Centers
                                           16                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


We determined full and open competition was not provided for 12, or 9 percent of the
134 vendor payments reviewed. Instead, the related purchasing process was
accomplished after soliciting and negotiating with only one source. Table 7 shows the
number of sole-source purchases and the value of the related payments made during
PY 2005, by center.
                                         Table 7

          Full and Open Competition Was Not Provided for 12 Purchases
                                   (PY 2005)


                             Schenck         Flatwoods         Blackwell          Total
    No. of Sole-source
    Purchases                          3                  4                5                 12

    PY 2005 Payments           $191,641          $91,810         $143,259        $426,710

We could not determine whether best value was obtained for the noted sole-source
purchases. As such, we question the costs associated with the $426,710 in payments
made during PY 2005. Current Forest Service management could not explain why full
and open competition was not provided as required by the FAR.

Payments Were Not Supported

Forest Service payments to vendors were not supported by documentation verifying that
the goods or services were received by the three centers or the amounts paid were
accurate and approved by management.

We reviewed the 134 vendor payments in our judgmental sample to determine whether
adequate supporting documentation was maintained. We found that 25 (19 percent) of
the 134 payments were not adequately supported. Invoices or receipts of goods were
missing for 15 payments ($68,150) and management approval documentation was
missing for 10 payments ($58,803). Table 8 shows the number of payments and the
related dollar amounts that were not adequately supported, by center.

                                       Table 8

             Adequate Support Was Not Maintained For 25 Payments
                                 (PY 2005)


                             Schenck       Flatwoods          Blackwell         Total

       No. of Payments                 5             15                5                25

       Amount                    $9,261       $83,100           $34,592        $126,953

                                   Performance Audit of USDA Forest Service Job Corps Centers
                                           17                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


During the audit, we did not determine whether the goods and services associated with
these payments were actually received. Instead, we limited our review to an
assessment of the management controls and concluded that Forest Service had not
placed sufficient emphasis on ensuring vendor payments were adequately supported.
Current Forest Service management could not explain why the supporting
documentation was not maintained.

Payments Were Not Posted To The Correct Cost Account

Vendor payments were not posted to the correct cost account at the three centers. We
found that 17 (13 percent) of the 134 vendor payments reviewed were either posted to
the wrong cost account (7 payments) or documentation was not available to support the
posting (9 payments). Additionally, one of the incorrectly posted vendors payment
($69,754) was paid with PY 2006 funds. This was especially significant because
covering current program year expenses with another program year funds is a violation
of PRH requirement. Table 9 shows the 17 payments that were not posted correctly or
adequate supporting documentation was not maintained.

                                        Table 9

            Posting was Inaccurate or Not Supported For 17 Payments
                                   (PY 2005)


                             Schenck       Flatwoods       Blackwell          Total

       No. of Payments                 3               9               5              17

       Amount                   $79,868       $35,019          $43,245       $158,133

Again, we concluded that Forest Service had not placed sufficient emphasis on
ensuring vendor payments were accounted for accurately. Current Forest Service
management could not explain why these accounting errors were made.

Controls Over Financial Reporting Need Improvement

Similar to our previous finding on inaccurate performance reporting, inadequate
financial management and inaccurate reporting impacts operational and funding
decisions made by Forest Service, Job Corps, and Congress. Ultimately, these
decisions impact the quality of services provided to Job Corps students. The financial
reporting weaknesses we identified occurred because Forest Service controls over
financial reporting were not effective. Standard financial reporting procedures were not
consistently established. As previously noted, standard procedures are a critical
management control because they provide center staff specific guidance on
responsibilities and procedures for ensuring compliance with the PRH. Adequate


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            18                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


training and oversight should also be provided to ensure the standard accounting
procedures are followed.

We concluded that Forest Service management did not carry out these responsibilities
effectively. Furthermore, inadequate oversight of the financial management and
reporting contributed to the financial problems we identified in this report. As previously
noted, the PRH requires center operators to establish procedures and conduct periodic
audits to ensure integrity, accountability, and prevention of fraud and program abuse.
Forest Service neither established procedures nor conducted financial audits. These
audits are needed to ensure compliance with Job Corps requirements for managing and
reporting financial activity. Although, Forest Service did conduct on-site monitoring at
its centers, the program managers at the Forest Service stated that these center
reviews were focused only on student development and career preparedness. Steps to
ensure center compliance with Job Corps requirements for financial reporting were not
included in the center reviews.

Recommendations

We recommended that the National Director, Office of Job Corps, require Forest
Service to increase its emphasis on compliance with Job Corps requirements by
implementing the financial management responsibilities specified in the Job Corps PRH.
Specifically, we recommend that the National Director require Forest Service to:

   6. Establish controls to require SOPs be developed for tracking and reporting
      Financial activities.

   7. Provide adequate training and supervisor oversight to staff responsible for
      following the SOPs and complying with Job Corp financial reporting
      requirements.

   8. Periodically conduct financial audit at each of its centers to effectively identify
      systemic non-compliance with Job Corps financial reporting requirements.
      These audits should assess PRH compliance with all elements of financial
      reporting including the implementation of accrual accounting, account
      reconciliation, and follow Job Corps policy and Federal Acquisition Regulations
      when Centers record and make payments to vendors.

   9. Implement corrective actions plans when PRH non-compliance is identified
      during audits. The corrective action should include providing Job Corps with any
      adjustments to previously reported financial activities.

   In addition, we recommend that the National Director:

   10. Consider the financial non-compliance noted in this report when making future
       Forest Service budget decisions.



                                     Performance Audit of USDA Forest Service Job Corps Centers
                                             19                    Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


Job Corps Response

The National Office of Job Corps concurs with the reported findings and
recommendations. The Job Corps Regional Offices (Philadelphia, Region II; Atlanta,
Region III; and Chicago, Region V) will coordinate with the Forest Service to request
their written concurrence, non-concurrence, or concurrence in-part to the reported
findings and recommendations as related to Schenck, Flatwoods, and Blackwell.
Further, the Job Corps Regional Offices will provide a plan of action and milestones for
completing the planned Forest Service actions to the reported recommendations. In the
interim, Job Corps Regional Offices will stay in communication with the Forest Service
to coordinate a written response including a plan of action and milestones, which should
be forwarded to the OIG no later than October 17, 2008.

The Office of Job Corps will also consider the issues of wasteful spending and financial
noncompliance as recommended when making future budget decisions impacting the
Forest Service’s management of its Civilian Conservation Job Corps centers.

OIG Conclusion

The OIG agrees that the National Office of Job Corps’ planned corrective actions were
appropriate to recommendations 6, 7, 8, 9, and 10. Job Corps will coordinate with the
Forest Service to obtain a plan of action and milestones for recommendations 6, 7, 8,
and 9. Until Job Corps provides documentation showing the Forest Service has
developed a plan of corrective actions and milestones, we consider those four
recommendations as unresolved. We will resolve those recommendations after the
Office of Job Corps provides documentation showing the Forest Service has developed
a plan of corrective actions and milestones. Subsequently, we will close the
recommendations after Job Corps provides documentation showing the planned Forest
Service corrective actions have been completed.

In addition, we have resolved and closed recommendation 10 made to the National
Director, Office of Job Corps, based upon Job Corps plan to consider the issues of
financial noncompliance when making future Forest Service budget decisions


Objective 3 – Did Forest Service ensure compliance with Job Corps
              requirements for managing center safety programs?

Nothing came to our attention to indicate that Schenck, Flatwoods, and Blackwell did
not comply with Job Corps requirements for managing center safety programs. Our
methodology for evaluating Forest Service safety programs at the three centers and
headquarters is summarized in Appendix B.


Elliot P. Lewis


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            20                    Report No. 26-08-004-01-370
                   U.S. Department of Labor – Office of Inspector General




Appendices




             Performance Audit of USDA Forest Service Job Corps Centers
                     21                    Report No. 26-08-004-01-370
                U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




          Performance Audit of USDA Forest Service Job Corps Centers
                  22                    Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

Job Corps is a national residential program authorized by Title I-C of the Workforce
Investment Act (WIA) of 1998. Job Corps objective is to provide education and training
to low income youth between the ages of 16 to 24 years in order to further education,
and to provide them the skills they needed to hold employment or enter the Armed
Forces. Section 670.310 (e) of the WIA authorizes the Secretary to enter into
interagency agreements with other Federal agencies for funding, establishment, and
operation of Civilian Conservation Centers (CCC) provided these Federal agencies
comply with the regulations. Forest Service has an Interagency Agreement (updated in
July 2008) with the Department of Labor (DOL) to operate 22 of the 28 CCCs
nationwide.

The Job Corps Director has been delegated the authority to carry out the responsibilities
of the Secretary under Subtitle I-C of the Act. The Job Corps Director administers the
program with support by National Office staff and a network of six Regional Offices.
The DOL formulates the budgets of federally operated centers annually on a cycle that
coincides with Job Corps’ Program Year (PY), July 1 through June 30. Cost information
is reported to Job Corps on quarterly Forms 2110F reports by the USDA FS through its
financial management system. These reports are used by Job Corps in its compilation
of nationwide Job Corps cost data for inclusion in its annual report to the Congress, to
the public, and for comparison with other centers. In PY 05 (July 1, 2005, through June
30, 2006), the USDA FS received approximately $16 million to fund the operations of
Schenck, $6M; Flatwoods, $5M; and Blackwell $5M.

Job Corps centers are required to record information related to student
accomplishments and accountability in the CIS. This information is used by Job Corps
to report center performance, based on outcomes of graduates (defined in the Act as
those who obtain a General Educational Development (GED) or high school diploma or
complete a vocational training program), and the information is also made available to
Congress in accordance with WIA legislation.

During our audit period (July 1, 2005, to June 30, 2006), Forest Service operated 19
Job Corps centers. Forest Service’s Job Corps program has grown to 22 centers in
2008. The centers report financial and performance data to the DOL National Job
Corps Office through DOL’s CIS maintained in Austin, Texas. Oversight responsibility
for these centers is with both the USDA FS assigned Project Managers in Lakewood,
and the DOL Regional Job Corps Program Managers.




                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            23                    Report No. 26-08-004-01-370
                U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




          Performance Audit of USDA Forest Service Job Corps Centers
                  24                    Report No. 26-08-004-01-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

   1. Did USDA Forest Service ensure compliance with Job Corps requirements for
      reporting performance?

   2. Did USDA Forest Service ensure compliance with Job Corps requirements for
      managing and reporting financial activity?

   3. Did USDA Forest Service ensure compliance with Job Corps requirements for
      managing center safety programs?

Our audit objective was to determine whether the Forest Service management monitors
and tracks operations of its centers as required by Job Corps’ Policy and Requirements
Handbook (PRH) Chapter 5, R.5.1 and Section III of their Interagency Agreement, and
to determine the accuracy of reported financial and performance data.

Scope

This report is a summary of our audit work conducted at Forest Service National Job
Corps Headquarters in Lakewood, Colorado and three centers operated by Forest
Service; the Schenck Job Corps Center in Pisgah Forest, North Carolina, the Flatwoods
Job Corps Center in Coeburn, Virginia, and the Blackwell Job Corps Center in Laona,
Wisconsin. Except where noted, we reviewed center safety, and performance and
financial data for FY2005.

We previously issued a report concerning our work at Schenck (Report No. 26-08-002-
03-390). That report discussed performance and financial issues and contained 14 audit
recommendations to the National Director of Job Corps for corrective action. The
National Director concurred with our findings and recommendations.

We conducted this performance audit in accordance with Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also internal controls for


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            25                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


managing center safety and reporting financial and performance information to Job
Corps. Finally, we reviewed Standard Operational Procedures (SOP) at Forest Service
Job Corps Headquarter located in Lakewood, Colorado. We also interviewed Forest
Service Job Corps management as well as the various program managers who were
responsible for monitoring the three Centers we visited.

Performance Reporting     In order to determine if Job Corps’ performance reporting
complied with PRH requirements, we reviewed Student Accomplishments for GED/High
School Diploma, and Vocational Training, Student AWOL, Student Accountability, and
Student Leave described in detail as follows;

        Student GED/High School Diploma, and Vocational Training – we examined the
PY 2005 OMS-20 reports that show student accomplishments at each of the three
centers. We statistically selected 30 students at each center or a total of 90 educational
accomplishments of the 292 GED credits claimed for students earning GED Certificates
certificate/diploma inside the students’ personnel file. In addition, we statistically
selected 90 of 562 vocational credits claimed as shown on the Center’s OMS-20 to
determine whether each student met the criteria necessary to be recorded as having
and High School Diplomas and verified these outcomes by reviewing the actual student
completed a vocation.

        Student AWOL – using a universe of 716 students in PY 2005 that demonstrated
AWOL activity at the three centers, we selected 314 students to determine whether they
exceeded the PRH established AWOL limits. From the sample of these students, we
identified whether students exceeded either the PRH AWOL 6 consecutive training day
rule, or had violated the PRH AWOL 12-day rule (within a 180 consecutive day period).
Further, we identified the date each student should have been separated if the PRH
AWOL rule had been enforced, and determined the number of days the Center retained
each student after their mandatory separation date. Lastly, we analyzed the 314
student records to verify whether the center staff documented their contacts/follow-ups
of AWOL students.

       Student Accountability – we interviewed Forest Service personnel to gain
understanding of their policies and procedures of monitoring its Centers’ operations to
ensure program accountability, accuracy and integrity as required by PRH Chapter 5,
R.2. We further evaluated the Center's SOPs to determine whether they were
developed and implemented effectively to know the whereabouts of every student at all
times. We examined the sign in/out register logs used to record students’ entry and exit
from the Center, and SOPs governing daily bed checks and students’ sign-in rosters.
Class attendance data were examined by judgmentally selecting the 7-day period
(January 3, 2006 to January 9, 2006) after the winter break and tested compliance with
the Centers’ rules and the PRH. We then compared each bed check, sign-in/out logs,
and class attendance reports to the Centers Morning Report to determine whether the
student accountability at each Center was reported correctly. In effect, this test
compared the internal controls supporting each student's status at the Center to the
student's status reported to Job Corps.


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            26                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


         Student Leave – using two-stage, stratified cluster sampling techniques, we
randomly selected 61 PY 2005, Center students and reviewed 608-leave days taken to
determine whether each of the 608 leave days were reasonable, supportable, or
allowable per criteria and limitation rules prescribed in the PRH Chapter 6, Exhibit 6-1.
The total universe of leave days at the three centers for PY 2005 was 9,770. We
projected our sample results with the assistance of the OIG Statistician using a
statistical technique with a 95 percent confidence level.

Financial Management and Reporting In order to determine if Job Corps’ was in
compliance with PRH requirement for Financial Management and Reporting, we
evaluated by comparing the three Centers’ PY 2005 Net Center Operations Expenses
reported on Form 2110F page 2 to the expenses shown in the General Ledger account
balances for the Schenck, Flatwoods, and Blackwell Job Corps Centers, respectively.
These general ledger transactions are maintained at the US Forest Service’s
Albuquerque Service Center. In addition to examining overall reported expenses, we
also reviewed all line entries on the Form 2110F, such as a food expense, by tracing
them to the corresponding general ledger accounting codes (job codes).

We evaluated all 29 expense categories on the 2110F. (5 of the lines were not used by
the US Forest Service to report expenses). In order to determine whether Center
expenses were supported with proper documentation, properly processed (to include
compliance with the FAR), and appropriately authorized for payment, we judgmentally
sampled 134 Center payments at the three centers. These payments included
expenditures for both contracts and non-personnel service items.

We requested the amount of 6% general administration funding received by the Forest
Service by inquiry to the USDA Albuquerque Service Center. We made inquires at the
Forest Service Job Corps National Office regarding how the Forest Service reports
these funds on the 2110F.

Center Safety      In order to determine if Job Corps Centers’ safety complied with
PRH requirements, we reviewed Student Drug Testing Program, Student Safety and
Health Associated with Job Corps Facilities and Internet Security described in detail as
follows:

       Drug Testing Program – we examined by randomly selecting the files of 120
newly enrolled students at Schenck, Flatwoods and Blackwell from a universe of 1,057
in PY 2005 to determine whether each was drug tested in accordance with the PRH,
and whether students that tested positive were tested again after 45 days.

       Safety and Health Associated with Job Corps Facilities – we interviewed the
Centers’ staff and reviewed the Centers’ facility maintenance reports to understand the
process implemented by the Centers. Specifically, we reviewed the Centers’ four most
recent Environmental Health Inspection, the annual safety and health reviews
performed by Link Technologies (under contract with DOL), the quarterly reports
conducted by the State, and weekly inspections conducted by the Centers to determine


                                    Performance Audit of USDA Forest Service Job Corps Centers
                                            27                    Report No. 26-08-004-01-370
                                           U.S. Department of Labor – Office of Inspector General


whether Schenck, Flatwoods and Blackwell management acted expeditiously to
address open items and to understand the overall rating for safety and health
inspections of all Job Corps facilities.

        Internet Security – we evaluated each centers’ internet security by developing an
internal control questionnaire and interviewed Center staff to gain an understanding of
their processes established by each Center regarding its internet security. In addition,
we observed the procedures implemented by the each Center and we physically tested
selected computers in various locations for unauthorized access.

      Oversight Activities at Forest Service Job Corps – we reviewed Standard
Operational Procedures (SOPs) at Forest Service Job Corps Headquarter located in
Lakewood, Colorado to determine if these SOPs were adequate per PRH requirements.
We also interviewed Forest Service Job Corps management as well as the various
program managers who were assigned to monitor three Centers we visited.


Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulation
   •   Job Corps Policy and Requirements Handbook
   •   USDA Forest Service and Department of Labor Interagency Agreement of 1974
   •   Government Auditing Standards




                                     Performance Audit of USDA Forest Service Job Corps Centers
                                             28                    Report No. 26-08-004-01-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

AWOL                         Absent With Out Leave
CCC                          Civilian Conservation Center
CIS                          Center Information System
DOL                          Department of Labor
FAR                          Federal Acquisition Register
FY                           Fiscal Year
GAO                          Government Accountability Office
GED                          General Education Development
GLPD                         Government Lost or Destroyed Property
HSD                          High School Diploma
OIG                          Office of Inspector General
OMS                          Outreach Measurement System
PRH                          Policy and Requirements Handbook
PY                           Program Year
SOPs                         Standard Operating Procedures
TAR                          Training Achievement Record
USDA                         United States Department of Agriculture
USDA FS                      United States Department of Agriculture Forest
Service
WIA                          Workforce Investment Act




                              Performance Audit of USDA Forest Service Job Corps Centers
                                      29                    Report No. 26-08-004-01-370
                U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




          Performance Audit of USDA Forest Service Job Corps Centers
                  30                    Report No. 26-08-004-01-370
                            U.S. Department of Labor – Office of Inspector General


                                                                   Appendix D
Job Corps’ Response




                      Performance Audit of USDA Forest Service Job Corps Centers
                              31                    Report No. 26-08-004-01-370
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                             Performance Audit of USDA Forest Service Job Corps Centers
                                     32                    Report No. 26-08-004-01-370
